r*-

Supreme Court, U.S.
FILED

No.

AUG 1 2 2020
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
1

MING WEI,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA, et al.,
Respondent,
On Petition for a \Vrit of Certiorari
to the United States dourt of Appeals for
the Third Circuit

$

i

36:>7

PETITION FOR A WRIT 0-E-CERTIORARI
0
315. •

Ming Wei, Pro Se
3910 Silver Brook Dr
Mechanicsburg, PA 17050
Phone: (717)732-2040
Email: mingweiebct@hotmail.com

i

rECEW&D
m)6

\9

3

QUESTION PRESENTED
(1) Whether It is unconstitutional to use a case in
deciding a different issue, forbidding reopening, and
disallowing interpreter to preclude the new issues?
Wei is a naturized Asian American dismissed by
PADOH. PADOH had about 50 staffers to collect,
convert and correct the HIV data, Wei’s duty was to
check their accuracy and completeness. After Wei
reported the discrimination and many errors in the
converted HARS data, PADOH deterred Wei by
increasing his workload, blocking his access the
database and forbiting his pay leave and dismissed
him. The Commission disallowed Wei to have an
interpreter in its hearing. PADOH insists the
dismissal cause was Wei failed to convert HARS data
solely. A state court affirmed. PADOH has admitted
that it assigned others rather than Wei to convert
HARS data in this case, but the Defendants insist the
Commission case couldn’t be reopened. However, they
falsified that the state tribunals decided something
else rather than converting the HARS data. It misled
the lower courts to preclude Wei’s major claims.
(2) Whether it is unconstitutional that—theDefendants used the false statements to hurt Wei but
claimed the government employees’ immunity?
The Defendants repeatedly claimed that they did the
government’s duty in response to that Wei accused
them making the false statements, defamation, and
fraud. These false statements misled the lower courts.
(3) Whether it is unconstitutional to define that an
employee continued to complain the discrimination as
the evidence of “no deter” and “no retaliation”?
The lower courts erred in using that Wei continued
to make his complaints as an evidence of that
Defendants didn’t deter and retaliate against Wei.
ii

PARTIES TO THE PROCEEDING
Petitioner (Plaintiff) is Ming Wei.
Respondents (Defendants) are the Commonwealth of
Pennsylvania and its two agencies: the Pennsylvania
Department of Health(“PADOH”) and Pennsylvania
State Civil Service Commission (“Commission”)! and
its employees: Veronica Urdaneta (“Urdaneta”), in
her individual and official capacity! Stephen Ostroff
(“Ostrofi”) in his individual and official capacity!
Tiffany Burnhauser (“Burnhauser”) in her individual
and official capacity! Godwin Obiri (“Obiri”) in his
individual and official capacity! Robert Giallo
(“Giallo”) in his individual and official capacity! Kim
Strizzi (“Strizzi”) in her individual and official
capacity! John Does 1-5 in their individual capacities
RELATED PROCEEDINGS
■H

The Supreme Court of the United States
Wei v. State Civil Service CommissionNar-19--1323_

P

The Commonwealth Court of Pennsylvania
Wei v. State Civil Service Commission,
961 A.2d 254 (Pa. Commw. Ct. 2008)
Wei v. State Civil Service Commission
No. 263 C.D. 2015). (Pa. Cmwlth, 2016)
Wei v. State Civil Service Commission.
No. 1902 C.D. 2016 (Pa. Cmwlth, 2017)
Wei v. State Civil Service Commission,
No 1321 CD 2018 (Pa. Cmwlth, 2019)

iii

TABLE OF CONTENTS
TABLE OF AUTHORITIES...................................... vi
PETITION FOR WRIT OF CERTIORARI............... 1
OPINIONS BELOW.................................................... 1
JURISDICTION.......................................................... 1
STATUTORY AND REGULATORY PROVISIONS
INVOLVEED................................................................ 2
STATEMENT OF THE CASE.................................... 3
REASONS FOR GRANTING THE PETITION....... 11
CONCLUSION
39

APPENDIX
Appendix A. Court of appeals opinion on Wei’s
application for rehearing
(March 31, 2020)................................................
la
Appendix B. Court of appeals opinion
(January 7, 2020)
.. 3a
Appendix C. District court final opinion and order
(March 28, 2019)..................................................... 16a
Appendix D. District court order
(March 27,2017)................................................. 26a
Appendix E. District court order
(September 23, 2015) ....................................... 29a
Appendix F. District court opinion and order
(June 6, 2012) ................................................. 33a

iv

•a*

Appendix G. Wei’s Application for Rehearing
Wei’s Petition for Rehearing in the third Circuit
Appendix for rehearing in the third Circuit
the Commission decided it didn’t consider Wei’s leave
issue
A few variables in a raw format of HIV lab reports
A few variables in a HARS Format
A sample of the layout of2007 draft format from Giallo
#63 of Wei’s material facts. Defendants’ Response, and
Wei’s Reply (PCD 235)
Pages 26 to 32, DCD 407 for Wei’s Submission in
Opposition to Defendants’ Renewed Objections
Page 7 from a Brief of PADOH to the Commonwealth
Court of Pennsylvania dated Jan 2, 2019
Wei found the converted HARS data with errors

43a
65a
68a
70a
71a
72a
74a
76a
84a
86a

Appendix H. Reproduced Records

IV

Pages 1-4 from Defendants’ answer to
Plaintiffs first request for admissions in 2012
Strizzi admitted she wasn’t in 08/24/2007 PDC
Selected pages from Obiri’s deposition, 2014
Obiri’s declaration in 2015
Selected pages from Defendants’ response to
Plaintiffs second set of interrogatories
Wei’s appeal his termination to the
Commission
Urdaneta’s April 9 2007 email to order Wei
used Giallo’s 2007 draft format to convert 2005
HIV reports
Timelines of that BIT developed 2007 draft
CSV format
Urdaneta’s name in the PADOH’s cc list
sending a duplicate of a letter that PADOH
approved Wei’s FMLA____________________
V

87a
91a
92a
98a
101a
102a

103a
104a

TABLE OF AUTHORITIES
Cases

Page

Afyeska Pipeline Serv. Co. v. Wilderness Society,
421 U.S. 240, 44 L. Ed. 2d 141, 95 S. Ct. 1612(1975)
35
Blonder-Tongue Laboratories, Inc. v. University of
Illinois Foundation,
402 U. S. 313, 328-329 (1971)................................ 15
Bradley v. Pittsburgh Bd. ofEduc.,
913 F.2d 1064, 1073 (3d Cir. 1990)..................... 11
Burlington N. & S. F. R. Co. v. White,
548 U.S. 53 (2006) ................................................ 38
CSX Transp., Inc. v. Bhd. ofMaint. ofWayEmps.,
321 F.3d 1309, 1317 (llth Cir. 2003)................... 23
Commissioner v. Sunnen
333 U.S. 591, 599-600, 68 S.Ct. 715, 92 L.Ed. 898
(1948)...................................................................... 23
Eastway Constr. Co. v. City ofNew York,
762 F.2d 243, 253 (2d Cir. 1985)...................... 34
Fields v. Wharrie.,
740 F.3d 1107 (7th Cir. 2014)................... ........ 24
Hazel-Atlas Glass Co. v. Hartford -Empire Co.,
15,33
322 U.S. 238, 246 (1944).......................
Hernandez v. Wells,
2003 WL 22771982, *5 (S.D.N.Y. 2003)
19
In re McCarthy,
34
623 N.E.2d 473, 477 (Mass. 1993)......
Kenner v. C.I.R., 387 F.2d 689
vi

(7th Cir. 1968)......................
33
Kremer v. Chem. Const. Corp.,
456 U.S. 461, 478(1982)........
15
Kupferman v. Consolidated Research & Manufactu­
ring Corp
459 F.2d 1072 (2d Cir. 1972)........
33
Lieb v. Topstone Indus.,
788 F.2d 151, 157 (3d Cir. 1986)..
34
Lockwood v. Bowles,
46 F.R.D. 625, 634 (D.D.C. 1969).
16
Merck & Co., Inc. v. Reynolds et al.,
130 S. Ct. 1784 (2010)..................
35
Montana v. United States,
12,15,32
440 U. S. 147, 153 (1979).............
Napue v. Illinois,
24
360 U.S. 264, 269 (1959).............
NC-DSH, INC. v. Garner
218 P.3d 853 (2009)......................
16
Pyle v. Kansas,
24
42, 317 U.S. 213, 215-16 (1942)...
Roadway Express, Inc. v. Piper,
447 U.S. 752, 65 L. Ed. 2d 488, 100 S. Ct. 2455
(1980)........................................................
35
Salia da v. Mock,
16
121 A.2d 54, 55 (Pa. 1923)..... ...............
Taylor v. Sturgell,
553 U.S. 880, 128 S. Ct. 2161 (2008)....
11
United States v. Dunn,
577 F.2d 119 (10th Cir. 1978)..............
26
Wei v. State Civil Service Commission,
No. 1902 C.D. 2016 (Pa. Cmwlth, 2017)
13,22

vii

Wei v. State Civil Service Commission,
961 A.2d 254 (Pa. Commw. Ct. 2008)
9,12,13,16,19-24
Wood v. Department ofPublic Welfare,
411 A.2d 281 (Pa. Cmwlth. 1980)....
12
Wood v. Strickland,
420 U.S.308, 95 S.Ct. 992,43 L.Ed.2d 214 (1975)..23
Constitution & Statute
18 U.S.C. § 1623 .............
Pa. Code § 204. Rules 3.3
US. Const. Amend. I......
U.S. Const, amend. XIV .

25
32

2,17
2,15,37

I

viii

PETITION FOR WRIT OF CERTIORARI
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought to be
the decision of the United States Court of Appeals
for the Third Circuit for Wei v. Commonwealth of
Pennsylvania et al, No. 19-1715 (3rd Cir, 2020)
(Appendix B).
Special notice is while PADOH insists that the
removal cause was Wei’s failing to convert the
HARS data in the state court, it falsified that the
state court’s decision wasn’t for converting the
HARS data to the federal court.
JURISDICTION
The Third Circuit denied Wei’s petition for
rehearing on'March 31, 2020 (Appendix A), the
jurisdiction of this Court is invoked under 28
U.S.C. 1254(1).

1

CONSTITUTIONAL PROVISION INVOLVED
The first amendment provides “Congress shall
make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or
the right of the people peaceably to assemble, and
to petition the Government for a redress of
grievances”.
The fourteenth amendment provides “All
persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they
reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property,
without due process of law! nor deny to any person
within its jurisdiction the equal protection of the
laws”.

2

Statement of the Case

A
4.

*

The petitioner Ming Wei (“Wei”) is a naturalized
Asian American of Chinese origin with a
pulmonary lobectomy (now at age 62) and worked
in the PADOH from Feb 2001 until August 2007.
He worked on the HIV team as an epidemiologist
and data manager at PADOH headquarter in
Harrisburg, Pennsylvania. A part of facts has been
presented in the case No. 19-1373.
During his employment, the Defendants
subjected him to a hostile work environment.
PADOH had a double standard and stereotypical
view that Wei should work harder than others, and
other staff mocked Wei’s national origin. PADOH
retaliated against Wei after he described the
instances of discrimination in connection with a
complaint filed by an Asian American who later left
the HIV team! then Wei became the lone Asian
American in the team. Wei was told that if he
complained more, he would receive more work. He
was told that he was different from other staff
members who were not Asian American.
PADOH denied Wei annual leave and using paid
leave in. lieu of FMLA leave, suspended his access
to the PA-NEDSS that he needed to complete his
work, overloaded him with work, and denied him
training opportunity. In comparison, other staffers
could enjoy those leave rights, access PA-NEDSS,
get the paying training. PADOH even loaded their
3

unfurnishing 2005 lab reports to Wei to do, and
loaded their cleaning work to Wei to do. PADOH
disciplined Wei unreasonably, PADOH admitted
no other staff was disciplined for missing a meeting
but Wei though his supervisor never notified him
to attend the meeting,
Other staffers didn’t
complete their converting HIV lab data for a few
years but PADOH ordered Wei set aside 2 hours
daily to complete them within a few weeks. The
PADOH told Wei that, if others could do his job, it
would terminate him. The Defendants suspended
Wei and then terminated his employment without
just cause. In this regard, they concealed
documents from him and they falsified the reasons
for his termination. They also failed to return all of
his personal belongings to him after he was
terminated.
The major task of the whole HIV team which had
15 positions in 2007, together with the Bureau of
Information Technology (“BIT”), was cleaning and
converting HIV reports, deduplicating them into
the potential cases (pre-HARS cases) to the field
offices; then 16 field offices investigated them and
sent the confirmed cases back to HIV team; Then
Wei received Deloitte’s (BIT’s contractor) extracts
of the confirmed cases, reviewing the completeness
and accuracy of data in PA-NEDSS. He wasn’t
allowed to collect and correct the cases by himself,
“his job is to analyze the data and point-out errors
he finds”. HIV team or BIT, cooperated with the
field offices in it was necessary, should fix the
inaccuracies and incompleteness.
In April 2004, PADOH decided to use BIT’s
PA-NEDSS replacing CDC HARS as the active
4

database for Pennsylvania HIV/AIDS cases. In the
initial Charter: BIT should convert all existing HIV
reports and future HIV lab reports timely and
convert about 44,000 HARS cases into PA-NEDSS
by July 1, 2005. PADOH invested multi-million
dollars for BIT to complete them. Unfortunately,
BIT didn’t complete either tasks on time.
On Oct. 28, 2005, PADOH stopped all other HIV
functions to concentrate converting both the
backlog HIV lab reports and HARS data in 2
months, it assigned other staffers to clearing and
converting 2005 reports by Dec 19, 2005. It also
assigned Wei spending 2 months exclusively to
clean 16 HARS databases from the field offices
because cleaning is a precondition for conversion.
Up Wei completed cleaning, he returned to
check the completeness and accuracy of the cases
weekly! Wei identified many errors in the
converted HARS data, thereby saving the
Commonwealth millions of dollars in funding. Still
he was harassed by revoking the password to
access PA-NEDSS. However, he still worked
extremely hard to push the PADOH to fix the
errors.
Wei wrote to Obiri that he didn’t see any 2005
reports in PA-NEDSS yet on Dec 22, 2005. He
indicated the incompleteness in processing HIV
reports to BIT’s lab report manager Giallo and
Obiri several times. BIT was responsible to
upgrade its 2005 HIV lab format to convert those
reports.
Giallo responded that they fell behind in
processing both 2005 and 2006 reports. And he,
5

*T

discussed with Obiri, was drafting an updated
Charter for the 2005 reports [since Dec 2005] but
“the project was bigger than originally anticipated,
it required a complete PA-NEDSS team effort for
the project”. Because the methods of reporting were
different, about 600,000 raw records reported in
2005 are about 14 times more than about 40,000
raw records reported in 2006.
Finally, PADOH held a Dec. 2006 BIT meeting to
accept the updated Charter, it wanted HIV team
got an estimated number based on an upcoming
BIT draft format first, the next step was holding a
meeting to decide the variables of the formal
format. Based on the experiences of that
PA-NEDSS team converted up to 330,000 reports
yearly. The work was expected to complete in the
end of 2008.
Although PADOH claimed others were in charge
of cleaning, no one cleaned the reports for the draft
format when it arrived. Wei worked days and
nights, cleaned, converted and de-duplicated and
got 158 potential cases (about 8% total cases) for
estimate. Then Giallo updated the draft format for
"more detail" and required to do deeper, Wei redid
and resent.
However, Giallo changed his tone, blamed that
Wei did too deep, they defined the draft format was
for an estimated number only, it was still useless
for the formal conversion. Urdaneta 100% agreed
with him.
Wei gave his estimated number to be about 2,000
real potential cases to Urdaneta and Giallo in
March 2007. They didn’t give Wei the feedback but
Urdaneta blamed Wei of missing a morning
6

meeting with the alibi of her un-exist email to ask
his attending.
Wei reported the discrimination and defamation
to the Division of Equal Employment Office
(“DEEO”). He contacted DEEO previously, while
PAD OH defined the data management as having
"severe staffing shortfalls" when 2.75 staffers
worked for the function, it expanded the staff
members in other functions from 5.25 to 14, but cut
the staff members in the data management into
only one in 2007. Wei needed to use his spare time
to complete his routine work. Wei reported that
PADOH decided Wei couldn’t get the compensatory
time for the. task since Nov 2006. In contrast,
Urdaneta and other staffers still received their
compensatory time.
However, in April 2007, Urdaneta gave Wei a
reprimand for the meeting and ordered Wei to use
the 2007 BIT draft format to convert all 2005 HR7
lab data. Because of huge workload, Wei asked
PADOH arranging others doing their jobs and
giving him an assistant, it rejected both requests
but ordered him to extract 2 hours daily to do the
“extra work”.
Therefore, Wei did others’ cleaning job first, he
worked extremely hard and got sick and hearing
problem. The excessive work and groundless
harassment by the Defendants caused Wei severe
ill. Wei became depressed and his health began to
deteriorate. His medical providers advised him to
work only intermittently in FMLA.
By July 2007, Wei completed about 400,000
reports, but he was very ill. Aware that the Wei’s
1

i

niv-

illness could be exacerbated thereby, the PADOH
harassed and abused him. It denied him annual
leave even though he had accumulated 100 hours of
vacation time. It also disallowed Wei using his pay
leave in lieu of FMLA leaves.
On July 23, 2007, Wei filed a complaint with the
Pennsylvania Human Relations Commission and
the EEOC. By the time that PADOH suspended
Wei to investigate on August 24, 2007, Wei did his
“extra work” exceptionally by processing 550,000
reports! and did his routine excellently, PADOH
admitted that Wei correctly identified the data
errors.. However, PADOH fired him on September
4, 2007.
The Commission oversees hiring, promotions,
and holds a hearing to decide the appeal from the
government employees for the discipline with a
status of limitation of 20 days (101a). On Dec. 3,
2007, the Commission held a hearing after Wei
appeared.
Pennsylvania law requires the provision of
interpreters for proceedings before administrative
agencies for the persons with limited English
proficiency. Wei requested to allow an interpreter
for the hearing, but the Commission denied his
request. Thus, he couldn’t fully address his issues
in the hearing.
Wei subpoenaed PADOH’s key documents such
as its updated Charter. PADOH refused releasing
the documents. It didn’t start returning Wei’s
belongings in PADOH’s office that contained some
key documents until June 2009 but never returned
his notebooks. Many key documents that Wei filed
8

rr- '

t-

to reopen couldn’t be presented in the hearing.
PADOH insists “the uncompleting assignment
from Dr. Urdaneta and which resulted in his
discharge was not given to him until December of
2006 [BIT meeting]”. “In December 2006, Veronica
Urdaneta, Wei's supervisor, assigned Wei the task
of converting the [HARS] data files” “The task was
solely Wei's responsibility” Wei v. State Civil
Service Commission, 961 A.2d 254 (Pa. Commw.
Ct. 2008 Wei I. But “Wei claims that it was not his
responsibility to convert the 2005 [HARS] data
files” Weil.
The Commonwealth of Pennsylvania requires
..the agencies to document their business records,
and preserve the records for the anticipating
litigation. However, during hearing, PADOH
didn’t present the key records relevant to the just
cause, but used the oral testimony to make up the
facts. Wei claimed PADOH’s employees lied under
oath.
The Commission decided that since PADOH
provided Wei sufficient time and tasked him
converting HARS data solely, the incompleteness
of HARS data constitutes his “insubordination and
unsatisfied work performance” (“IUWP”).
:. Wei appeared the Commission’s decision to the
Commonwealth Court of Pennsylvania, Wei
claimed that PADOH never assigned him to
convert HARS data. PADOH insisted that it
assigned Wei, and only Wei, to convert HARS data.
The Commonwealth court noticed that both sides
were different in every key fact, but it affirmed.
In May of 2009, Wei went to the Commission
9

.

office to discuss his case and get the job opening
information. When he asked to review his file, he
was told to come back another day. When he went
back, the Commission called the police to stop, and
arrest Wei. Although the Commonwealth finally
withdraw the case, the Defendants defamed Wei
that the case was ended with plea bargain.
Defendants embarked on a campaign to defame
Wei and to destroy his career and reputation. They
distributed that Wei engaged in IUWP in failing to
convert HARS data to block Wei’s employment
opportunity. Because Defendants’ defamation, Wei
tolerated hard torture in mind, without weekends
and holidays, and was always on the nightmare.
Procedural History of This Case

*

Wei commenced this action by filing a complaint
in April, 2011. Wei made multiple claims against
the Commonwealth, its agencies PADOH and the
Commission, and its employees^ Urdaneta, Ostroff,
Burnhauser, Obiri, Giallo, Strizzi and John Does
1-5 for defamation, discrimination and retaliation
based on race, national origin and disability. As
relief, Wei seeks compensatory and punitive
damages as well as reinstatement.
The Defendants filed their dismissed motions,'
their motions were partially granted but largely
denied. Then the Defendants filed their motion for
Summary Judgment with the doctrine of collateral
estoppel as the major weapon, and Wei filed his
motion for partial summary judgment on
defamation only, the District Court denied Wei’s
10

-

ft

motion, granted Defendant’s motion partially and
denied it partially, but it allowed the Defendants to
file their second motion (Appendix E). Then the
District Court in March 2017 granted Defendants’
second motion partially, even accepting the
Defendants’ claims of the Commission’s findings to
preclude Wei’s claims, the District Court found
that four counts of Wei’s claims still could go to a
trial (Appendix D). However, in June, 2018, the
District Court changed mind and asked the
Defendants to file another motion to object R&R. In
March 2019, the District Court accepted the
Defendants’ motion for Summary Judgment fully
(Appendix C). Then Wei appealed to the Third
Circuit, Defendants passed the due dates to enter
Appearance Form and file their response brief. The
Third Circuit affirmed (Appendix B).

B

REASONS FOR GRANTING THE PETITION

v

h

I. The Third Circuit erred in affirming the issue
preclusion. It is unconstitutional to use a case in
deciding a different issue, forbidding reopening,
and disallowing interpreter to preclude the new
issues
The requirements of issue preclusion have been
satisfied ifi (l) the issue is identical; (2) the
judgment was final and on the merits; and (3) there
was a full and fair opportunity to litigate. See
Bradley v. Pittsburgh Bd. ofEduc., 913 F.2d 1064,
1073 (3d Cir. 1990). A party asserting issue
preclusion bears the burden of proving each of
these elements. Taylor v. Sturgell, 553 U.S. 880,
11

128 S. Ct. 2161 (2008). Wei indicated that the .
Defendants failed to meet its burden to prove (l) or
(3). Wei also indicated that changes in the
controlling facts which render issue preclusion
inapplicable Montana v. United States, 440 U. S.
147, 153 (1979).
(a) Erred in the issue is identical
The Third Circuit erred in agreement with the
Defendants’ fraudulent statement that the state
court affirmed a just cause for Wei's removal from
his job due to [IUWP] other than failing to convert
HARS data.
However, As the Third Circuit wrote "In 2008,
the Commission decided that [PADOH] had the
just cause for the firing because Wei had failed to
complete an assignment" (Appendix B, 4a). The
assignment was converting HARS data in both the
Commission’s decision and the Commonwealth
Court’s affirmation. The Commonwealth Court
agreed with PADOH’s claim: because Wei failed to
convert HARS data solely, this constituted the
IUWP. Weil.
According to the Pennsylvania law, a civil
. servant hasn’t been given adequate notice of the
reasons for dismissal if the only reason given is
“continued unsatisfactory work performance.”
Wood v. Department of Public Welfare, 411 A.2d
281 (Pa. Cmwlth. 1980).
The just cause that PADOH gave was “In
December 2006, [Urdaneta], Wei's supervisor,
assigned Wei the task of converting the [HARS
12

:

v*,

data]” Wei I. “Wei was terminated for not
completing the [HARS data] assignment by July 31,
2007. While the Department maintains that Wei
was given ample resources and time within which
to complete the assignment” but “Wei claims that it
was not his responsibility to convert the 2005
[HARS data] files” Weil.
“In a letter dated September 4, 2007, [PADOH]
notified Wei that he was being removed from his
position because of [IUWP], Specifically, [PADOH]
maintained that Wei ‘failed to complete the 2005
backlog data work assignment as directed by July
,31s 2007.’" Wei I. PADOH later clarified that the
assignment was converting. HARS data (84a). •
In the state proceedings, the Defendants claimed
that the incompleteness of converting HARS data
constituted Wei’s IUWP. Since the Defendants
have admitted that PADOH never assigned Wei to
convert the HARS data, his IUWP must never
exist.
PADOH insists that the incomplete converting
HARS data by Wei was well established in the
state case, and it had stronger reason than
incompleteness to fire Wei if Wei did the
unassigned HARS task by himself. See Wei v.
State- Civil Service Commission. No. 1902 C.D.
• 2016 (Pa. Cm with, 2017) {Wei IIP) Based on the
Defendants' just cause in the state case, Wei-must
be dismissed because he didn’t complete converting
HARS data. Based on the Defendants’ facts in this
case, Wei must be fifed if he converted HARS data.
Evidently, the issue decided by the Commonwealth
Court and the issue in the federal court are not
13

5

•» .

K

it ■

■

:

■,

identical because banning the conversion of HARS
data and ordering to convert HARS data are not
only unidentical but also totally contradictory.
Clearly, the Defendants didn’t meet their burden
to prove the issue of that they tasked Wei
converting HARS data in the state tribunals is
identical to the issue based on that they never
assigned Wei to convert HARS data in this case.
While PADOH admitted that it assigned BIT
and others rather than Wei to convert HARS data,
it claimed that it assigned Wei to unify HIV lab
data into the BIT CSV format so they could be
“uploaded into PA-NEDSS with the rest of HARS
data” but Wei failed (casel9_1373, 151a-152a1).
This is fraud too, because PADOH in 2007 banned
electronically converting any HARS data though
the incompleteness and inaccuracies of previous
conversions needed to fix. Wei addresses the issue
in details in this filing later.
(b) Erred in Wei had Full and Fair Opportunity

>

In this case, the Defendants claimed that because
the Commission provided Wei the same full and
fair opportunity as the court, they could use its
. decision to preclude the federal court hearing,
Unfortunately, the Third Circuit erred in agreeing
the Defendants’ argument. However, the facts
1 In addition to cite the appendixes as “la-104a”, Wei also
cited some documents with prefix “casel9-1373” for
Appendixes filed with the case 19-1373, “AX” for those filed to
the Circuit Court and “DCD” for those filed to the District
Court.
14

A

T*.

t

show that Wei hadn’t full and fair opportunity:
(l)Barred to reopen the Commission case

i' •'

l:'

r,

0

In the state case, PADOH insists that the
Commission isn’t a court, so the Commission’s case
was disallowed to be reopened as the court does.
[So, its full and fair opportunity is less than the
court]. In this case, however, PADOH and the
Commission claimed that they could use the
Commission’s decision to preclude the federal court
hearing because the Commission has provided Wei
full and fair opportunity as the court.
The Court held the judicially created doctrine of
collateral estoppel doesn’t apply when the party
against whom the earlier decision is asserted didn’t
have a "full and fair opportunity" to litigate the
claim. See Montana, Blonder-Tongue Laboratories,
Inc. v. University ofIllinois Foundation, 402 U. S.
313, 328‘329 (1971). Indeed, “offer a full and fair
opportunity to litigate the merits, and thus are
sufficient under the Due Process Clause of the
Fourteenth Amendment” was a prerequisite for the
issue preclusion Kremer v. Chem. Const. Corp., 456
U.S. 461, 478 (1982).
If the Commission. case couldn’t be reopened
when a fraud was committed, the decision must be
banned to preclude later court hearing because the
applicant didn’t have full and fair opportunity in
reopening as that in the court case.
There is no time limit on setting aside a
judgment obtained by fraud, nor can laches bar
consideration of the matter Hazel-Atlas Glass Co.
15

t.

v. HartfordEmpire Co., 322 U.S. 238, 246 (1944).
NC-DSH, INC. v. Garner 218 P.3d 853 (2009). The
logic is clear: “[T]he law favors discovery and
correction of corruption of the judicial process even
more than it requires an end to lawsuits Lockwood
v. Bowles, 46 F.R.D. 625, 634 (D.D.C. 1969). In
Pennsylvania, the Court must not tolerate the
fraud “where a judgment has been obligated by
fraud, no court will permit its records and
processes to be the instruments of infamy.”
Sallada v. Mock, 121 A.2d 54, 55 (Pa. 1923).

'••w-

(2) Disallowing an interpreter
Wei was denied an interpreter during the
Commission hearing though he requested one
(case 19-1373, 136a) and he had the hmited
competency of English. Commonwealth has
documented “Wei is Asian and his Enghsh is very
broken” (AX250) and the District Court required
Wei to hire an interpreter when he wanted to
deposit the Defendants.
In the state case, PADOH insists that the
Commission isn’t a court, its hearing didn’t require
the same standard of the interpreter as the court,
the Commission could disallow Wei to have an
interpreter Wei I. [So, its full and fair opportunity
is less than the court]. In this case, however, they
claimed that because the Commission provided Wei
the same full and fair opportunity as the court,
they could use its decision to preclude the federal
court hearing, Unfortunately, the Third Circuit
erred in agreement with the preclusion.
16

il

Furthermore, depriving Wei’s right to be heard
undermined the integrity of the American legal
system, Asian Americans should be treated
equally. In addition, millions of Americans work
oversea and many of them mayn’t be fluent in the
native language. They would get the unfair trial
when the countries that they reside denied their
request for the interpreter.
Wei also was denied the opportunity to correct
the hearing records. Misled by the Defendants, the
Third Circuit misunderstood that Wei wanted to
make the correction twice, as Wei wrote in the
petition of rehearing (Appendix G), Wei actually
wanted to correct his own testimony located as the
second part of the transcript (Wei testified after
PADOH finished testifying).
Therefore, Wei’s meanings weren’t documented
correctly, it violated Wei’s free speech right to
express what he wanted under U. S. Constitution’s
first amendment and prejudiced Wei. Although the
Commission discredit Wei and rarely cited what
Wei testified. But the Commission claimed Wei
agreed that all documents would be concluded by
the end of the hearing day, it struck Wei’s
additional evidence (casel9‘1373, 150a) for
impeaching and rehearing. However, Wei's
understanding and agreeing was that the day's
testimony - in the Commission hearing was
concluded. In addition, Wei has been deprived
from citing what he really testified in the appeal or
other cases.
(3). Suppressing the key evidence
17

X

V*

As Wei stated in the petition for rehearing
(Appendix G), PADOH suppressed the key
evidence in the state proceeding.
PADOH rejected Wei’s request (AX419), for the
updated Charter, in which PADOH required that
BIT developed the format first, then HIV team
converted the “raw” reports into the [formal]
format (case 19-1373, 72a). It means converting
HIV reports into the draft format was banned and
useless, Giallo and Urdaneta also wrote so in
March 2007 (casel9-1373, 91a). Therefore, that.
Urdaneta in April 2007 ordered Wei to convert
600,000 records into the BIT 2007 draft format was
totally for the retaliation and harassment.
PADOH in the updated Charter required “If
there is not enough information to meet the
PA-NEDSS required fields [of BIT format], the
data should not be converted” (casel9-1373, 74a,
para. l). It consists with PADOH routine that the
cleaning up must be done before the conversion.
Because others were in charge of cleaning but they
didn’t clean, it should terminate them rather than
Wei.
PADOH also suppressed the evidence that it
received Wei’s Aug 27, 2007 report of converting
550,000 reports (casel9-1373,119a). It testified
that Wei didn’t send the email, then it decided
terminating Wei (casel9-1373,
137a;16-25).
therefore, the outcome must be reversed based on
the newly confirmed fact.
PADOH falsified it tasked converting HARS
data to Wei in Dec. 2006 BIT meeting. However,
18

the Defendants have admitted that the task was an
estimated number (case 19-1373, 91a), and they
received Wei’s estimated number of 2,000 potential
cases (case 19-1373, 97a). Therefore, Wei completed
the task of Dec. 2006 BIT meeting.
The Defendants in their material facts didn’t
dispute that Wei didn’t know many facts until the
discovery of this case (casel9-1373, 155a). “If
significant new evidence has been uncovered since
the parole revocation hearing, [the court] cannot
find that Hernandez had a full and fair opportunity
to present his case at the hearing without that
evidence” Hernandez v. Wells, 2003 WL 22771982,
*5 (S.D.N.Y. 2003).
(c) Erred in the control facts wasn’t changed

■t-

'A

The Third Circuit erred in agreeing the
Defendants’ argument “Wei also argues that an
exception to preclusion applies: that there have
been changes in the controlhng facts which render
issue preclusion inapplicable. However, he simply
repeats his previous argument that he was not
assigned to convert the HARS data”.
However, as the Third Circuit recognized: "the
firing because Wei had failed to complete an
assignment" (4a). In the state case, both PADOH
claimed (84a) and the state tribunal decided that
the incomplete assignment was converting HARS
data Wei I. Since the Defendants admitted that
PADOH never assigned Wei to convert HARS data
in this case (casel9-1373, 151a), the control facts
have been completely changed. However, Wei has
19

•i.

!
<

i

provided many other key changes in the facts.
For example, in the state case, PADOH claimed
that it provided Wei several weeks of sufficient
times to complete converting HARS data, but Wei
failed to complete the task, this constituted IUWP
and deserved to be terminated. So, the termination
had nothing related to the discrimination and
retaliation. In this case, the Defendants admitted
converting HARS data was a huge project, it
assigned BIT and many other staffers to do the
work since 2004. Indeed, PADOH’s documents
show that it assigned Wei to check the errors after
the others converted HARS data (case 19* 1373, 51a,
54a, 55a). Therefore, the discrimination and
retaliation emerge as the probable cause.
In the state case, PADOH claimed “Wei was
charged with collecting and reporting HIV/AIDS
data accurately” Weil. In this case, its documents
show Wei was charged with reviewing the
completeness and accuracy of the collected data
while about 50 staffers from the HIV team, BIT
and 16 field offices were charged with collecting
and correct the data completely and accurately
(casel9‘1373, 50a-51a, 54a-55a).
In the state case, PADOH stated that Wei didn’t
send the email about his performance by Aug 29,
2007, then it decided to dismiss him (case 19'1373,
137a;16'25). In this case, its documents show that
it forwarded Wei’s Aug 27, 2007 email about his
performance (casel9*1373, 119a).
In the state case, PADOH claimed “Urdaneta
transferred some of Wei’s job responsibilities to
other staff members” Wei I. In this case, no her
20

.rv

h

*

t

f
kl

T‘

*>

email transferring Wei’s duty to others was found.
Instead, she emailed to assign more tasks to Wei
(AX343-9) and Wei completed all of them. For
example, Wei trained Obiri three times until Aug.
2007 (DCD 207-4, pp63-67).
In the state tribunals, PAD OH claimed “the
employer could not continue to wait for [Wei] to
make excuse and to stall the progress of the
project”, so it terminated Wei to accelerate the
progress (casel9-1373, 138a). In this case,
however, PADOH has admitted that it didn’t
complete its priority of 2005 HIV reports by Sept. ,
2010 (74a); it had no record that the work was
completed.
In this case, PADOH had the records that the
HIV team or BIT processed up to 480,000 HIV
reports or 330,000 reports yearly (case 19-1373,
147a, 58a). PADOH also claimed that it destroyed
all hardware of 2007 computers (case 19-1373,
150a).
In the state case, Urdaneta testified that
PADOH ordered Wei to show the data in PDC but
he didn't do that. In this case, PADOH denied her
story (casel9'1373, 141a). Neither PADOH’s PDC
minute nor any records documented her story or
PADOH’s order. Instead, PADOH documented that
Wei had completed 400,000 records (casel9-1373,
112a).
In the state case, PADOH claimed when Wei
sent Giallo 158 potential cases, “In a response,
Giallo informed Wei that he was getting too deep
into the process” to portray Wei’s insubordination
Wei I. In this case, the records show that Giallo
21

responded Wei with an updated draft format to ask
Wei getting deeper and "more detail", “[The
message constructions rules] must be carefully
adhered to in order for messages to be interpreted
correctly” (case 19-1373, 156a); However, Giallo
changed the tone after Wei redid deeper.
In the state case, PADOH claimed that Wei could
bring the data out of HIV secured area freely. In
this case, based on Pennsylvania law and CDC HIV
guidelines, HIV policy and requests must be in
writing, and the papers with identities couldn’t be
brought out of the HIV secured area (casel9'1373,
153a-154a).
In the state case, PADOH claims that e-mails
show that Wei was insubordinate in refusing for six
months to accept the duty of converting HARS data.
In this case, neither email nor record show Wei
refused to do so.
In the state case, PADOH has insisted that “the
uncomplete assignment which resulted in Wei’s
discharge was not assigned to him until Dec. 2006
[Meeting with BIT] (DCD 343-1, p3)”. In this case,
it admitted the Dec 2006 task was an estimated
number and it archived “Estimate gave by Dr. Wei”
with the estimated 2,000 cases (case 19-1373, 83a,
97a).
In the state case, PADOH insists it assigned Wei
converting HARS data solely even in 2019 (84a)
and the Commonwealth Court still disbelieves that
PADOH never assigned Wei to convert HARS data.
Wei III. In this case, Defendants claimed they
never assigned Wei to convert HARS data hut to
unify 2005 lab data (casel9-1373, 151a-152a), they
22

■

\r

T*

also assigned Allen and. Lehman continued the
task since 2006 (93a:5-6).
The Court held “The doctrines of collateral
estoppel and res judicata, however, apply only in
cases where controlling facts and law remain
unchanged” Commissioner v. Sunnen 333 U.S. 591,
599-600, 68 S.Ct. 715, 92 L.Ed. 898 (1948). A party
“need only point to one material differentiating fact
that would alter the legal inquiry” CSX Transp.,
Inc. v. Bhd. ofMaint. ofWayEmps., 327 F.3d 1309,
1317 (11th Cir. 2003).”
In addition, under the status of limitations of 20
days and the initial plan of 2*hour hearing
(AX431), the Commission case limited to hear
termination only though other events might be
mentioned, but they were not planned to litigate
there. It is inappropriate to use them to preclude.

c

II o It is unconstitutional that Defendants used the
false statements to hurt Wei but claimed the
government employees’ immunity. The Third
Circuit erred in affirming the district court’s
decision to deny Wei’s relevant claims and sanction
motions.
Regarding. Defendants’ false statements, they
argued the statements were related to their
employment and were within the scope of their
duties. For example, for Wei’s defamation claims,
the Defendants didn’t dispute the facts but claimed
that they enjoyed the immunity.
However, this Court in Wood v. Strickland, 420
U.S. 308, 95 S.Ct. 992, 43'L.Ed.2d 214 (1975)
defined the scope of immunity available to officials
23-

■ ,r

rn

r

of the executive branch, the common law immunity
of public officials had been limited to "good-faith,
nonmalicious action taken to fulfill their official
duties". So, the immunity certainly didn’t include
the intentionally false statements that the
Defendants committed in this case. As Discussed
above, the Defendants made the false statements
to construct the just cause to dismiss Wei. In
addition to those false statements, Defendants also
committed the new ones in the federal court
proceedings.
It was established law that a Government
employees’ fabricating evidence was a violation of
due process. See Fields v. Wharrie., 740 F.3d 1107
(7th Cir. 2014), Napue v. Illinois, 360 U.S. 264, 269
(1959),' Pyle v. Kansas, 42, 317 U.S. 213, 215-16
(1942).
However, the Defendants used the false
statements to win this case. For example; the
Defendants stated that the Commonwealth Court
affirmed the just cause for Wei's removal due to
IUWP rather than failing to convert HARS data. In
fact, the Commonwealth Court affirmed that
falling to convert HARS data constituted IUWP.
Wei I. PADOH has insisted so in the state case
(84a).
Another example: Strizzi in 2012 wrote, under
oath, that PADOH in an Aug 24, 2007 PDC
reviewed the termination charge to Wei (89a, Tf4).
However, she committed perjury because she never
presented to the PDC as she admitted (91a!
casel9-1373, 131a).
24

In addition, PADOH documented that it orally
suspended Wei to investigate his performance after
[Dr U] Urdaneta accused Wei of failing to complete
the task decided in the 2006 BIT meeting, no
termination notice was recorded (case 19-1373,
131a- 133a), Strizzi in her Aug 27, 2007 letter to
Wei’s home wrote “This is written confirmation of
your suspension pending investigation...You will
be notified of any action taken” (case 19" 1373,
144a), Clearly, the termination wasn’t notified Wei
by that time. Strizzi made a false statement in
here.
In the state case, PADOH has insisted “the
uncompleting assignment from Dr. Urdaneta and
which resulted in his discharge was not given to
[Wei] until December of 2006 [BIT meeting]” (DCD
343*1, p3). Since PADOH archived and admitted
that the task to be an estimate only and Wei have
given the estimate, it obviously would loss the case.
To win the case, PADOH used Obiri’s false
statements to this case that Wei must continue
converting 2005 lab reports since fall 2005.
However, PADOH’s records show both Obiri and
his supervisor Urdaneta in writing to move Wei to
other “extra work” of cleaning the HARS databases
of 16.field offices a month later (DCD 139-1, pp7*9).
PADOH had no record to order Wei converting the
lab data from Oct 28, 2005 to April 8, 2007.
Instead, it had the record to order Wei reviewing
the completeness-after others converted them into
PA-NEDSS (casel9*1373, 51a).
U.S. Code § 1623 held Perjury is committed
when “the defendant under oath has knowingly
25

T.

made two or more declarations, which are
inconsistent to the degree that one of them is
necessarily false, need not specify which declara­
tion is false" United States v. Dunn, 577 F.2d 119
(10th Cir. 1978). The Defendants’ contradictory
statements must be considered as the perjury, it at
least should be considered as the fraud in the Civil
lawsuit.
In addition, putting those Obiri’s under-oath
statements together, we could find they
contradicted each other in key issues. First, we
could extract three key facts from them:
Obiri confirmed that he assigned converting
2005 lab reports as Wei’s “extra work” in fall 2005
(93a:24) based on Wei’s knowledge [rather than
responsibility]. He also assigned Allen and Lehman
to convert 2005 lab reports (89a, f 5).
Obiri stated, from Oct to Dec 2005, the whole
HIV team and Deloitte (BIT) concentrated on both
converting 2005 HIV lab data by Dec 19, 2005 (90a,
TJ6) and converting HARS data later. However, by
Nov 22, 2005, they realized the deadline of
completing the lab data was unrealistic (DCD 70-1,
p7). So, the task was incomplete.
Obiri stated that he [on Oct 28 2005] moved Wei
to “clean up the main [HARS] databases [of 16 field
offices] for conversion” (94a: 2-3) exclusively and
“solely” (90a, If7) “in November and December
2005” (96a, f9). Since PADOH started converting
HARS data in April 2004 (AX220), the data
couldn’t be converted because of uncleaning yet.
Since other staffers didn’t join Wei to clean up the
26

?
V'

*■

HARS data, they must continue converting HIV lab
reports.
Obiri defamed Wei in several aspects: First,
Obiri stated “When Dr. Wei failed to complete his
assignment [of converting 2005 reports], PADOH
failed to meet the Dec 19, 2005 deadline” to bring
them into PA-NEDSS (90a, 1f6). However, he
testified that he assigned Wei this “extra work” in
fall, 2005 (93a;24) but banned Wei doing the work
in Nov and Dec 2005 though he used a word
“postpone” (96a If9). Clearly Obiri made the false
statement.

V»

Second, Obiri listed many emails (98a*99a, If3
■&f4) that he allegedly directed Wei developing a
CSV format to convert 2005 lab reports. So. Wei
must use his format to complete 2005 reports later.
However, under questions, Defendants couldn’t
identify any email [or record] for this purpose (See
92a). The list was false. Indeed, Wei was
impossible to develop any format for PA-NEDSS
because he couldn’t fully access PA-BEDSS and
didn’t know what PA- NEDSS required.
Furthermore, PADOH’s Oct 2005 documented
that Obiri favored using HARS format for the
conversion (casel9-1373, 145a), but opposed using
CSV format (AX521-2). Moreover, in the updated
charter developed since Dec 2005 (casel9-1373, 70a)
with Obiri (casel9-1373, 78a), PADOH clearly
required to convert the “raw” reports into the
upcoming BIT format (casel9-1373, 72a). It means
to ban converting the raw reports into any other
formats.
27

•V-

r*

Third, Obirie claimed that he assigned Wei to
convert 2005 lab data solely. Nevertheless, this
contradicts his statements of assigning 3 staffers,
others worked to Nov 22 [without Wei]; and he
asked Allen and Lehman return to the 2005 lab
reports in 2006 (94a;5‘6).
Obiri also wrote “Once the conversion of the
[HARS] data systems were complete, I instructed
Ming Wei to return to “convert the 2005 lab
reports. However, the Defendants have admitted
that no record to instruct Wei to convert the lab
data in 2006 (99a Tf5). Instead, PADOH ordered
Wei to review the completeness and accuracy in
PA-NEDSS (casel9'1373, 51a) after others conver­
ted HIV lab data.
Obiri stated that he ordered Wei to postpone
2005 lab data for 2 months only. No record
supports his claim. Indeed, some records didn’t
support his claim: Obiri in Oct 2005 wrote to
Urdaneta and told Wei that Allen and Lehman
could complete the lab data without Wei in 2 or 3
weeks (AX534, AX248), and he also stated that he
didn’t realize the deadline of Dec 19 was unrealistic
until Nov 22, 2005 (DCD 70, p7).

♦

While PADOH has 'admitted that it assigned
the BIT and other staffers rather than Wei to
convert HARS data in this case, it changed its
story to “Wei failed to complete the assignment
given to him of [converting] into a single format
file the backlog of HIV laboratory data so that it
could be evaluated, cleaned, and uploaded into
[PA-NEDSS] with the rest of the HARS data”
(casel9-1373, 151a).
28

r

v.

However, PADOH routinely and in its updated
Charter required cleaning the reports as perfect
as possible must be done prior to the conversion.
“If there is not enough information to meet the
PA-NEDSS required fields [of BIT format], the
data should not be converted” (casel9-1373, 74a).
Indeed, once the reports converted into BIT’s
draft format, it couldn’t clean anymore.
PADOH claimed that the other staffers were in
charge of cleaning up but they didn’t clean the lab
data yet. Although PADOH in April 2007 assigned
Wei to “set aside 2 hours” daily to convert 2005
reports into BIT 2007 draft format (case 19" 1373,
107a), if Wei waited for their cleaning, he
- shouldn’t convert any reports. Therefore, PADOH
committed the new fraud.
Defendants also falsified that Urdaneta’s April
9, 2007 order (102a) wasn’t a new assignment but
an old task. However, Urdaneta’s task was “I’m
directing you to complete the processing of HIV
laboratory data backing using the template
provided by Bob Giallo...” (102a). This was the
first time that PADOH ordered using the BIT
draft format (template) to convert. It is completely
new. It is a shock U-turn new. Although BIT
started working the format from 2005 to Feb 2007
(103a), both Urdaneta and Giallo wrote this
' format was a draft format for getting an
estimated number only, but banned it for the
overall conversion in their March 2007 email
(casel9_1373, 91a).
Since PADOH defined the draft format was
useless for the conversion, and it require
converting “raw” lab reports into BIT formal
29

format (casel9-1373, 72a), PADOH asked Wei to
convert 600,000 raw reports into a useless draft
format was both wasting and harassing.
PADOH banned converting the HARS data into
PA-NEDSS in 2007 though the incompletes of
previous conversion needed to fix. So, PADOH
committed the new fraud by stating the
conversion with the HARS data to be uploaded
into PA-NEDSS.
Nevertheless, Wei worked extremely hard and
processed (cleaned and converted) 550,000 reports
(casel9-1373, 119a). Based on PADOH’s records,
the BIT or HIV team could process up to 330,000 or
480,000 records yearly (casel9_1373, 58a, 147a).
Clearly, the Defendants committed the new fraud
by stating that they provide Wei the sufficient time
to do this “extra work”.
PADOH in July 2007 told Wei that he was no
long a part but let the other parts to solve the
backlog lab data issue (case 19-1373, 111a), and he
should focus on his job of checking errors. However,
while Wei enhanced his working on checking the
accuracy and completeness, he continuously
processed HIV lab data to 550,000 reports until
PADOH suspended Wei for investigation on Aug
24, 2007 (casel9-1373, 133a).
The Defendants blamed Wei “The project never
began because Ming Wei never completed the
unification of the backlog data”. However, the
Defendants claimed they terminated Wei to
accelerate completing this priority (case 19-1373,
138a) too. But, many years after Wei left, they
still blamed Wei for their failure in converting
30

4

ri k

*

c
*
S’

r

2005 lab data. Therefore, ’this must be defined as
the defamation.
Another example, when Wei went to the
Commission to get the case and job information in
2009, the Commission falsely claimed Wei was
trespass and the Commonwealth charged Wei.
Although the Commonwealth withdrew the charge
later, the Defendants defamed Wei to resolve the
charge by the plea bargain (DCD. 207-4, pp 20-21).
A company called Wei and stated that he was
dishonor in his criminal history based on a website
Truthfinder, then Wei asked Truthfinder why it
' spread the false information to hurt his reputation
(DCD 416-2), Truthfinder stated its information
from the Government.
Because of the space limit, no all of Defendants’
defamation, fraud and contradiction is listed in
here. For the reason, Wei’s claims against these
fraud and defamation must be allowed, and his
motions to sanction the Defendants must be moved
forward.
In addition to the new fraud, the Defendants
argued the old false facts accredited by the
Commission and the state court; therefore, they
could reuse them as the undisputed material facts
.to preclude Wei’s claims. Indeed, most of Wei’s
claims were precluded in this way.
For example, Defendants cited the false
statement in (casel9-1373, 137a;16*25) and stated
“Wei never supplied Burnhauser with an email or
any other evidence that any of the files had been
entered or unified. Id. at 28; 16-25)” in their
material facts. Although they have released the
31

■*g.

■

•»:

.

V

£

es
v
r?

Aug 27, 2007 email that Burnhauser received from
Wei (casel9-1373, 119a).
Another example, though PADOH admitted that
it documented that BIT or HIV team could
complete up to 330,000 or 480,000 reports yearly
(case 19-1373, 58a, 147a,). Since 2007 draft
format added some variables into 2005 format
(103a) and had the same strict requirement
(casel9-1373, 156a), converting a raw report into
2007 draft format requires the similar workload as
converting it into 2005 CSV format. Defendants
clearly knew that Wei completed converting
550,000 reports into the BIT’s 2007 draft format
was an excellent job.
According to the Defendants’ logic, if Defendants
successfully falsified a man died in the Commission,
they could continue to claim his death even the
man actually is alive. However, this is in violation
of the Pa. Code § 204. Rules 3.3.: (a) A lawyer shall
not knowingly: (3) offer evidence that the lawyer
knows to be false.
However, this Court held changes in controlling
facts essential to a judgment render collateral
estoppel inapplicable Montana. Even if the
collateral estoppel is applicable, it just precludes
the identical issue in the new lawsuit, it never
gives a green light to reuse the knowing false
statements to-preclude the new claims. Based on
the status of limitation of 20 days in the
Commission of appeal Wei only appear the
termination in the Commission, (10la), many of
claims that Wei filed in this case was expired and
32

4.

«*»•

**

S
at
&

didn’t prepare to litigate in the Commission. These
claims certainly should not be precluded.
The success of using a previous fraud to interfere with a
justice couldn’t serve as an alibi to continue using the fraud
to the Court. In Atlas Glass, the defendants had used a false
story to defend and prevailed previously, but the Court
didn’t state this fraud should continue because they were
previously accredited by the courts, instead, but declared
“[f]rom the beginning there has existed ... a rule of equity
to the effect that under certain circumstances, one of which
is after-discovered fraud, relief will be granted- against
judgments regardless of the term of their entry.”
Jn Kenner v. C.I.R., 387 F.2d 689 (7th Cir. 1968),
when an officer of the Court including lawyers is
found to have fraudulently presented facts to court
so that the court is impaired in the impartial .
performance of its legal task, the act is considered
as "fraud upon the court". The court held “a
decision produced by fraud on the court is not in
essence a decision at all and never becomes final.”
While an attorney “should represent his client
with singular loyalty that loyalty obviously does
not demand that he act dishonestly or
fraudulently! on the contrary his loyalty to the
court, as an officer thereof, demands integrity and
honest dealing with the court.” And when he
departs from that standard in the conduct of a case
he perpetrates a fraud upon the court. Kupferman
v. Consolidated Research & Manufacturing Corp
459 F.2d 1072 (2d Cir. 1972).
Furthermore, when an officer of the court fails to
correct a misrepresentation or retract the false
evidence submitted to the court, it may also
33

.v;

£■

TZ-

■i5

£

X
A’.

constitute fraud on the court. In re McCarthy, 623
N.E.2d 473, 477 (Mass. 1993).
Even considering all the Commission’s writings
could be used to preclude, the District Court in
2017 still found Wei’s 4 claims could move forward.
The Defendants tried to use’ the false statements to
get rid of them. For example, because the
Defendants claimed that Urdaneta wasn’t aware of
the decision to approve Wei’s FMLA, then the
District Judge used “no evidence that Dr. Urdaneta
was aware that Wei had been approved for FMLA
leave by human resources” as one of the reasons to
dismiss Wei’s claim (23a). However, the evidence
shows that Urdaneta knew the decision (104a).
Rule 11 sanction doesn’t require proving “Bad
faith”. See Lieb v. Topstone Indus., 788 F.2d 151,
157 (3d Cir. 1986); because window period was
provided, “subjective good faith no longer provides
the safe harbor it once did." for rule 11 sanction.
Eastway Constr. Co. v. City ofNew York, 762 F. 2d
243, 253 (2d Cir. 1985). Since the Defendants didn’t
correct within 21 days, the sanction should be
applied.
What Defendants have done to use the false
statements to win the case is not the legal art but
far cross the red line. This was especially true that
making false statement is a very common criminal
charge in the USA. Their prevails undermine the
integrity of the functioning legal system.
The Court held “if the limitations period began to
run regardless of whether a plaintiff had
discovered any facts suggesting scienter. So long as
a defendant concealed for two years that he made a
34

k\
'A

%

'j

•m

misstatement with an intent to deceive, the
limitations period would expire before the plaintiff
had actually " discovered]" the fraud.” Merck & Co.,
Inc. v. Reynolds et al., 130 S. Ct. 1784 (2010). In
this case, Defendants have continued using their
power and public authority status making the false
statement to deceive the tribunals after Wei
indicated they were false,
A Court could sanction the party’s misconducts
even the misconducts did not occur within this
court. The power of the federal courts to sanction
misconduct, be it vexatious litigation or contemp­
tuous behavior, is beyond doubt. See, e.g.. Roadway
Express, Inc. v.. Piper, .447 U.S. 752, 65 L. Ed. 2d
' 488, 100 S. Ct. 2455 (1980), Afyeska Pipeline Serv.
Co. v. Wilderness Society, 421 U.S. 240, 44 L. Ed.
2d 141, 95 S. Ct.l612(l975); In addition to the goal
of deterrence, the exercise of the inherent power
can also be based on the goals of compensation and
punishment.
In the initial complaint, Wei claimed that
Defendants committed for intentional emotional
distress but was dismissed by the District Court
(Appendix F). Based on that the Defendants
repeatedly and intentionally falsified the fact to
harm Wei, and they have continuously caused Wei
severe stress. Wei requests to add the claim
against the Defendants.
III. It is unconstitutional to define that Wei
continued to complain the discrimination as the
evidence of “no deter” and “no retaliation”. The
35

•v
.♦S3

•■4

4

lower courts erred in siding with the Defendants’
this claim
In the district court, the Chief Magistrate Judge
decided
that
Defendants
made
some
misstatements but didn’t reach the sanction level.
She pointed out that Defendants listed Wei’s
admission that he missed a mandatory meeting
was a misstatement.
Wei actually stated this wasn’t a mandatory
meeting and he never received Urdaneta’s order to
go to the meeting. In addition, no word
“mandatory” was presented in the notice of this
meeting. In contrast, the notices of the real
mandatory meetings from Urdaneta and others
had the word “mandatory” (AX421-2) but some
staffers still missed the meetings.
Soon after Wei reported DEEO that Urdaneta
falsified that Wei missed a mandatory meeting,
Urdaneta gave Wei a reprimand though PADOH
admitted it never disciplined any employee for
missing a meeting (AX536) and Urdaneta admitted
that she missed some meetings.
Urdaneta also assigned Wei to complete
processing 600,000 HIV reports into 2007 BIT draft
format solely in a few Weeks (2 hours daily), though
PADOH documented that whole BIT or HIV team
needed at least a year to complete them
(casel9-1373, 58a, 147a). PADOH also banned Wei
to have the compensatiorial hours in his overtime
though others could get it.
Urdaneta wrote “Because of your deadline of
your work assignment [of 2005 reports], I am not
approving any annual and personal leave” and
36

O

V

«r«'

J

f.
?

preclude Wei’s pay leave in lieu of FMLA. Then
Wei complained that he must get the pay for his
sick. However, PADOH on July 2, 2007 to issue a
reprimand to deter Wei’s complaint (AX540) and
insisted that Wei couldn’t get any pay leave until
he complete 2005 reports. This is a clearly
retaliation: PADOH claimed that it ordered several
other staffers to convert about 4,000 Philadelphia
records in 2006, they converted 362 records only in
4 months (case 19-1373, 64a); but they could enjoy
the pay leave. PADOH also claimed that it
assigned Allen and Lehman to convert the 2005 lab
- data since 2006 (94a:5'6), they could get the pay
leave. PADOH admitted it unfinished the 2005 lab
data by Sept 2010 (74a), its staffers could enjoy the
pay leaves.
However, the District Court erred in siding with
the Defendants: “it is evident that Wei was not
dissuaded from making or supporting a charge of
discrimination by virtue of these two written
reprimands. To the contrary, Wei made almost
weekly complaints to the DEEO, which were in
addition to his many more formal complaints to the
EEOC, PHRC and the courts.” as a reason to judge
that Wei wasn’t retaliated (Appendix C, 22a) as the
evidence of no retaliation. The Third Circuit erred
in affirmation.
Nevertheless, defining unstopping complains to
authorities as the “non-deter” is unconstitutional.
If we stop complaint, how could we stop the
discrimination? How could the court get the case?
This definition is in violation of the Fourteenth
Amendment to the United States Constitution.
Nevertheless, the Court addressed the “deter” are
37

■ w

.!'

V'

for that the employer’s acts deterred the employee.
In Burlington N. & S. F. R. Co. v. White, 548 U.S.
53 (2006), White never stopped her complaints
after the employer used reassignment and
discipline to deter her and she also complained to
EEOC several times. The Court held that the
employer’s acts deterred her complaint, therefore,
it constituted the retaliatory discrimination.
In Burlington, the Court gave good examples to
explain “deter” was the employer’s action^
“A schedule change in an employee’s work
schedule may make little difference to many
workers, but may matter enormously to a young
mother with school age children. Cf., e.g.,
Washington, supra, at 662 (finding flex-time
schedule critical to employee with disabled
child). A supervisor’s refusal to invite an
employee to lunch is normally trivial, a
nonactionable petty slight. But to retaliate by
excluding an employee from a weekly training
lunch that contributes significantly to the
employee’s professional advancement might well
deter a reasonable employee from complaining
about discrimination. See 2 EEOC 1998 Manual
§8, p. 8-14. Hence, a legal standard that speaks
in general terms rather than specific prohibited
acts is preferable, for an “act that would be
immaterial in some situations is material in
others.” Obviously, the Court defined deterrence
from the behavior of employers rather than
employees.
In Wei’s case, the “deter” was more obvious,
other staffers could take their sick leave, enjoy
38

Si?

•fef.

f Hv

their annual leave, get the paying training, access
PA-NEDSS, but Wei could not. men PADOH
failed to finish converting 2005 lab reports by the
deadline of December 19, 2005 and later, then it in
2007 wanted Wei to do that with minimum time,
when other staffers didn’t fulfill their cleaning
duty, Wei had to help them to finish. In contrast,
Wei helped them to process (clean and convert) a
majority of 2005 lab data with an exceptional pace,
but he was discriminated, retaliated, defamed and
terminated.
Conclusion
The petition for a writ of certiorari should be
granted.
Respectfully Submitted:
\

Ming Wei
3910 Silver Brook Dr.
Meehanicsburg, PA 17050
Phone (717) 732-2040
mingweiebct@hotmail.com
08/12/2020

39

